REVIEW OF ALLEGATIONS CONCERNING
  HOW THE LOAN MANAGEMENT AND
ACCOUNTING SYSTEM MODERNIZATION
    PROJECT IS BEING MANAGED

             Report Number: 9-17
           Date Issued: July 30, 2009




                 Prepared by the
           Office of Inspector General
       U.S. Small Business Administration
            U.S. Small Business Administration
            Office Inspector General              Memorandum
    To:    Eric R. Zarnikow                                         Date:   July 30, 2009
           Associate Administrator for Capital Access

            Christine Rider
            Chief Information Officer
           /s/ Original Signed
  From:     Debra S. Ritt
            Assistant Inspector General for Auditing
Subject:   Final Report on the Review of Allegations Concerning How the Loan
           Management and Accounting System Modernization Project is Being Managed
           Report No. 9-17

            This report presents the results of our review of allegations regarding the Small
            Business Administration’s (SBA) management of the Loan Management and
            Accounting System (LMAS) Modernization Project. LMAS, which will receive
            supplemental funding from the American Reinvestment and Recovery Act, is
            integral to SBA’s strategy for improving, streamlining and automating information
            technology systems related to lender processes and lender oversight.

            The project was initiated in November 2005 to integrate the Agency’s loan
            monitoring and financial management systems and to move them to a new
            operating platform. The project also included the modernization of all the loan
            system components—from the core loan functions to the 19 subsystems associated
            with loan processing and servicing operations.

            In December 2008, the Office of Inspector General received a complaint primarily
            alleging that (1) because the Quality Assurance (QA) process established for the
            project was not independent from the project management staff, issues identified
            by the Quality Assurance/Independent Verification and Validation (QA/IV&V)
            contractor were not being reported to senior management; (2) a defined process for
            accepting contract deliverables had not been established; (3) deliverables for one
            of the contracts were behind schedule; (4) contractor employees participated in
            meetings without being cleared or trained on information security procedures; and
            (5) the risk management process established for the project was immature. The
            complaint also made other minor allegations involving desktop security and events
                                                                                                                          2


that had not yet occurred or were outside the scope of the LMAS project. Our
review of the complaint focused on only the five major issues outlined above.

To determine whether the QA process was independent from project management
staff, we examined SBA’s files for the three LMAS blanket purchase agreements
(QA/IV&V, project management, and systems integration) to identify the project
reporting structure and assess compliance with SBA’s Systems Development
Methodology (SDM) requirements for QA. We also evaluated actions taken by
SBA to implement our prior audit recommendations that an independent project-
level QA process be established and that an enterprise-wide QA function be
implemented.1 We assessed whether project issues identified by the QA/IV&V
contractor were being reported to senior management by comparing contractor
findings of deficiencies with those noted on the project’s risk register2 and project
plans,3 and through discussions with program management and the Chief
Information Officer (CIO).

To determine whether a process had been established for accepting contract
deliverables, we compared the deliverable review process established for the
LMAS project with requirements established in the SDM and with the contractor’s
SDM criteria. To assess the timeliness of contract deliverables, we interviewed
the Program and Project Managers and compared due dates on multiple project
plans. To determine whether contractor staff participated on the project before
being cleared, we: reviewed SBA’s clearance policies; identified contract
employees from project documentation; obtained information on the meetings they
attended and tasks they were assigned; and determined whether they had the
required clearance forms.

To determine the maturity of LMAS risk management, we compared LMAS risk
management practices with those established in the Risk Management Plan for the
project and the Office Management and Budget’s (OMB) Capital Planning Guide.4
We also obtained information from contract procurement officials, the Office of
the Chief Information Officer (OCIO), and LMAS project officials. We
performed our review between September 2008 and April 2009 in accordance with
Chapter 6 of the Government Auditing Standards prescribed by the Comptroller
General of the United States.



1
    Recommendations No. 4; OIG Report No. 08-13, Planning for the Loan Management and Accounting System
    Modernization and Development Effort, May 14, 2008.
2
    The risk register is an iterative document that summarizes all risks that may affect the project, their causes, and
    potential responses.
3
    The Program Manager defined the project plans as “work breakdown structures.”
4
    Supplement to OMB Circular A-11, Part 7: Planning, Budgeting and Acquisition of Capital Assets.
                                                                                                            3


BACKGROUND

The LMAS project is one in a series of attempts by SBA during the past several
years to upgrade existing financial software and application modules and to
migrate them off the mainframe environment. LMAS remained in the planning
phase until September 2008 when SBA awarded three blanket purchase
agreements to: (1) establish QA/IV&V monitoring and oversight ($5 million); (2)
provide project management support ($7.5 million); and (3) provide systems
integration services ($250 million). To-date, three task orders have been issued
from the third blanket purchase agreement to:

           • migrate the existing Joint Administrative Accounting Management
             System (JAAMS) application to a new hosting site;
           • provide a proof of concept pilot; and
           • develop a road map for the LMAS project.

To oversee the project, SBA established the LMAS Project Steering Council,
which is comprised of senior management officials that meet weekly to evaluate
the project status and provide direction. The Council members include the CIO,
Acting Chief Financial Officer (CFO), the Senior Advisor for Policy and Planning,
the Consultant to the Administrator, the Associate and Deputy Associate
Administrators for the Office of Capital Access (OCA), the Acting and Deputy
Associate Administrators for Disaster Assistance, the Directors for Financial
Assistance and Financial Systems and LMAS, and the Supervisory Financial
Analyst for Financial Assistance. OCA is the project sponsor and the day-to-day
management of the project is the responsibility of the Program Manager, who
reports to the CFO.

The OIG has issued two reports on the LMAS project since it was first conceived
in 2005. In September 2005 the OIG reported that even though the Loan
Accounting System (LAS) posed a substantial risk, SBA had not yet adopted and
implemented a definitive migration strategy or replacement approach.5 In May
2008 an OIG audit of the planning process for LMAS found that costly mainframe
contracts had to be renewed because migration of the system was delayed. The
Agency also had not established either an enterprise-wide or project-level QA
function to ensure that LMAS project deliverables met SBA’s requirements and
quality standards, as required by the Agency’s SDM policy.6 This policy requires
that an enterprise QA function, which is independent of SBA projects and
programs, be established to ensure that IT projects adhere to Agency quality

5
    OIG Report No. 05-29, SBA Needs to Implement a Viable Solution to Its Loan Accounting System Migration
    Problem, September 30, 2005
6
    OIG Report No. 8-13, Planning for the Loan Management and Accounting System Modernization and Development
    Effort, May 14, 2008.
                                                                                 4


standards and procedures throughout the systems development and maintenance
process. These standards are outlined in the OCIO’s Enterprise Quality Assurance
Plan.

The enterprise QA function also enables the OCIO to meet its mandate under the
Clinger-Cohen Act to provide independent assurance that systems development,
testing, and configuration management efforts are aligned with SBA’s IT
architecture and quality standards. Additionally, project managers are responsible
for implementing a project-specific QA program built on the standards established
in the Enterprise Quality Assurance Plan.

After the May 2008 OIG report, which recommended outsourcing the project-level
QA function, the LMAS Program Manager contracted with the IV&V contractor
to provide project-level QA and closed the recommendation.


RESULTS IN BRIEF

Our review confirmed that the project-level QA process was not independent from
project management staff; a process had not been established for accepting
contract deliverables until January 2009; several deliverables were behind
schedule; contractors participated in meetings and were assigned tasks without
being cleared or trained on SBA security procedures, and the project’s risk
management process was immature. We did not, however, find that the Program
Manager filtered problems identified by the QA/IV&V contractor. More
specifically, we found that:

       • An independent QA function had not been established for the LMAS
         project, as we previously recommended. While a contractor had been
         hired to evaluate and monitor compliance with quality standards, the
         contractor reported to the Program Manager, which did not provide the
         level of independence called for by the Agency’s SDM. The CIO also
         had not designated an independent QA Manager for the project.
         Because the Program Manager functioned as the QA Manager, he was
         in a position to determine which problems identified by the QA/IV&V
         contractor would be reported to senior management. However, we
         found no evidence to suggest that he withheld issues from senior
         management. We also determined that the CIO had not established an
         enterprise-wide QA function as previously recommended.

       • The project lacked a defined process for accepting deliverables until
         months after task orders were awarded. A process was later defined in
         January 2009, which differed from the process suggested by the
                                                                                                                  5


                 Agency’s SDM policy. For example, it did not identify documents to
                 be reviewed, review methods, associated review time frames, or
                 officials that would be responsible for reviewing deliverables.

             • Deliverables associated with task orders from the systems integration
               blanket purchase agreement were past due, which may impact timely
               project completion. For example, the completion date for the
               Integrated Baseline Review (IBR) under Systems Integration Task
               Order 1 slipped three months from December 11, 2008 to March 12,
               2009. The extension of the IBR due date was improper because SBA’s
               Earned Value Management (EVM) policy requires that it be performed
               prior to contract initiation to establish cost, schedule, and performance
               goals. The March 31, 2009, completion date for the migration of
               JAAMS under Task Order 1 was also not met.

             • Seventeen of 45 contractor employees started on the project before
               completing SBA’s clearance process, some of whom worked on the
               project for more than 45 days before completing the clearance process
               or receiving the required computer security awareness training. These
               employees attended meetings, and according to the LMAS Action Items
               List, 10 were assigned action items. The Program Manager believed
               that the employees were merely attending high-level meetings, which
               did not require vetting through SBA’s clearance process.

             • The LMAS risk register did not contain all of the information
               recommended by OMB’s Capital Programming Guide7 and the LMAS
               Risk Management Plan, such as risk ratings and plans for mitigating
               some of the identified risks. Without a complete risk register that
               identifies how project staff will respond to specific risks, the success of
               the LMAS project could be affected.

To address these issues, we recommended that the LMAS contract be amended to
require that the QA/IV&V contractor report to the Program Manager and that an
independent QA Manager be designated by the CIO. We also recommended that a
well-defined process be established for accepting LMAS deliverables, contractor
employees not be allowed to work on LMAS until they have been properly vetted
in accordance with SBA policies and procedures, and that the LMAS risk register
be revised to include all fields identified in the LMAS Risk Management Plan and
key information that is currently missing in the risk register. Finally, we


7
    Supplement to Office of Management and Budget Circular A-11, Part 7: Planning, Budgeting and Acquisition of
    Capital Assets.
                                                                                6


recommended that the CIO establish an enterprise-wide QA function to ensure that
all IT projects comply with Agency quality standards.
Management’s response generally disagreed with the audit results. We believe
management’s views were primarily those of the Program Manager, who was the
subject of the allegations. We provided the Program Manager additional time to
address the audit findings before issuing the draft report. However, the Program
Manager was not able to provide adequate evidence supporting his disagreements
on the audit findings. The Program Manager’s views have been incorporated and
evaluated within the body of the report. Further, while management agreed to take
action on all of the recommendations, we found that the actions proposed in
response to Recommendations 1, 2, 3, 5, and 7 were not sufficient to fully address
the related findings. These actions largely do not comply with established IT
governance protocols, such as the Agency’s SDM, or are contrary to Agency
policy.

Finally, we are particularly concerned that the CIO has chosen not to immediately
establish a QA oversight function as a vehicle for assessing and improving IT
projects, plans to provide only a “high level” Quality Manager for the LMAS
project, and has not specified when the LMAS Quality Manager will be
designated.

RESULTS

The Project-Level QA Function for LMAS Was Not Independent from
Project Management

The complaint alleged that the QA process for monitoring LMAS performance
was not independent from the Program Manager and that not all issues identified
by the QA contractor were being reported to senior management. The SDM states
that the project-level QA function should have a reporting channel to senior
management from a QA Manager that is independent of project line management.
This requirement, which the CIO confirmed applied to LMAS, was communicated
to Agency staff through SBA Procedural Notice 9000-1596, issued on November
9, 2005.

However, we found that the QA/IV&V contract required the contractor to report
exclusively to the Program Manager and the Contracting Officer’s Technical
Representative (COTR), who reports to the Program Manager. The CIO was
unaware that the QA/IV&V contractor reported exclusively to the Program
Manager and COTR. She also had not designated a QA Manager for the LMAS
project to ensure that the project-level QA function was independent from the
Program Manager. Although the CIO had been made aware of these findings in
December 2008, as of May 8, 2009, a QA Manager still had not been designated
                                                                                  7


for LMAS. Having a QA process that functions independently from LMAS
project management provides assurance that quality and performance issues will
be accurately and completely reported to senior SBA managers.

Further, although the Program Manager was in a position to determine which
problems identified by the QA/IV&V contractor would be reported to senior
management, we found no evidence that he withheld significant LMAS problems
or risks from senior managers.

Finally, we followed up on our previous recommendation that the CIO implement
an enterprise-wide QA function needed to fulfill her oversight responsibilities for
information technology investments under the Clinger-Cohen Act. Although in
May 2008 the CIO agreed to implement the recommendation, as of July 30, 2009,
an enterprise-wide QA function had not been established.

A Well-Defined Process for Accepting Contract Deliverables Had Not Been
Established

The complaint alleged that the project lacked a well-defined process for submittal,
review, and approval of project deliverables. Further, the complaint alleged that
the delivery of services was subject to the personal interpretations of the Program
Manager instead of solid SBA policies and procedures to guarantee that the best
work products possible were generated. The Agency’s SDM requires that a
defined process be established for accepting deliverables and suggests that the
process should:

      • Identify documents to be reviewed, the method of review, and associated
        review time frames;

      • Specify the types of reviews to be performed;

      • Designate a review team within the Agency that includes individuals
        who are responsible for application development, project management,
        configuration management, and QA to identify defects and ensure a final
        quality product; and

      • Ensure that the Project Manager and QA Manager approve deliverables.

We found that a process for accepting deliverables was not established until
January 29, 2009, after some deliverables were rejected, including the LMAS QA
Plan. Further, the LMAS process did not fully follow the process suggested by the
SDM requirements because it left to the Project Manager’s discretion what
documents would be reviewed, the type of review to be performed, and the
                                                                                     8


composition of the review team. As a result, there was limited assurance that all
deliverables would be reviewed and whether reviews would be made by the
appropriate parties.

The Program Manager told us that the LMAS team found no evidence of an
established, documented deliverable management process in existence at SBA.
Therefore, one had to be created specifically for LMAS, which is why the process
was not established sooner. He also believed that the LMAS deliverable process
implemented complies with the intent of the process suggested by the SDM.
Further, he told us that the LMAS solution provider (SRA) was using its own
systems development methodology, called ELITE, which was fully compliant with
industry standards established by the Software Engineering Institute.

In January 2009, the Program Manager presented to the CIO the solution
provider’s mapping of its proprietary ELITE methodology to SBA’s SDM to show
that the LMAS project was being managed in accordance with Agency policy for
systems development projects. In a May 2009 meeting, the CIO told the OIG that
she had approved of SRA’s approach and was satisfied that the Program Manager
was complying with Agency QA requirements.

We examined the mapping document that the Program Manager provided to the
CIO and concluded that it did not provide sufficient detail for the CIO to make a
determination about whether the deliverables acceptance process used by the
contractor clearly defined the types of reviews to be performed of deliverables or
that the appropriate reviewing parties had been identified. For this reason, we do
not believe that there is adequate assurance that the LMAS project has a well-
defined process for accepting deliverables. Further, the LMAS Project Manager
has sole authority to determine what deliverables get reviewed, who is
accountable, and the basis for acceptance.

Contractor Deliverables Were Behind Schedule


The complaint alleged that the prime contractor was behind schedule in providing
deliverables on the integration services blanket purchase agreement, and that there
was no action plan to address the delays. Based on our interview with the
Program Manager and a review of the work breakdown structures, we determined
that the prime contractor missed multiple deliverable due dates for task orders.

One delay involved a 3-month extension of the due date for the IBR from Task
Order 1, which was originally scheduled for completion on December 11, 2008.
The IBR is a structured review process involving all relevant SBA stakeholders
and the contractor to obtain agreement on project schedule, cost, and performance
                                                                                                                   9


metrics and to identify risks associated with the project plan. The revised IBR
completion date in a March project plan was listed as March 12, 2009. This
extension, which occurred after contract initiation, was contrary to SBA’s Agency
Earned Value Management Policy8 that states:

         “Per OMB Memorandum M-05-23 and Agency earned value management
         policy, integrated baseline reviews will be performed prior to contract
         initiation…” and

         “…it is mandatory that all major investments (investments that cost
         $200,000 or more in a single year, or $500,000 or more in 3 years, and all
         projects deemed to be of high visibility by the Business Technology
         Investment Counsel) use the EVMS.”9

The Program Manager acknowledged that the IBR should have been performed
earlier in the process and stated that it will be for future task orders. Further, he
acknowledged that the March 31, 2009, completion date for the migration of
JAAMS under Task Order 1 was also not met. The migration was delayed 3
weeks, and JAAMS did not become operational at the new site until April 20,
2009. The Program Manager attributed the late deliverables to extreme delays in
getting the contractor’s security background checks completed, and hardware
failures. However, we confirmed that the length of the security clearance process
was not unusual and should have been factored into the milestones established for
the task order.

In addition, the baseline schedule for deliverables has been revised multiple times,
giving the misleading appearance that the contract is on schedule even though
original deliverable dates were not met. Per discussions with the Program and
Project Managers, the deliverable tracking process established for LMAS was
based on the project plans, which are updated periodically with modified
deliverable due dates. Since LMAS project management did not conduct an initial
IBR to establish performance, schedule and cost baselines, the Agency will not be
able to accurately measure performance, which is necessary for meaningful
Earned Value Management reporting.


Contractor Employees Attended Meetings without Required Security Vetting



8
   Earned Value Management is a project measurement technique that relates resource planning to technical, cost, and
   schedule requirements. All work is planned, budgeted, and scheduled in time-phased “planned value” increments,
   constituting a cost and schedule measurement baseline.
9
  SBA Earned Value Management System Policy for Information Technology (IT) Projects, December 2005.
                                                                                                                       10


The complaint alleged that contractors were present in planning and other
meetings prior to meeting SBA requirements for background investigation and
security clearance and had not completed security training requirements.
Consequently, the complaint alleged that contractors waiting for clearances were
privy to other contractor work plans, which could result in an unfair competitive
advantage and legal action.

SBA Procedural Notice 9000-1684, SBA Form 1228 Process, requires that
contractors receive a favorable preliminary background check prior to entering on
duty. In addition, the LMAS systems integration task order states that the
contractor is responsible for having its employees working under the task order
execute all certifications required by SBA prior to beginning work. SBA requires
that SBA Form 1228, Computer Access Clearance/Security Form, be used to
initiate and document the security clearance process for new contractor
employees.10

Based on our review of LMAS project meeting minutes and the LMAS Action
Items List, we found that 17 of the 45 contractors on the LMAS project from
November 12, 2008 to February 13, 2009, participated in the project before their
background investigations were completed. These contractors attended meetings,
such as the 7(a) Regular Loan Accounting Events Session and Conference Room
Pilot meeting, and/or were assigned action items for the LMAS project prior to
meeting SBA’s background investigation and security clearance requirements.

Additionally, as of February 13, 2009, 17 (including 2 who also started work
before completing background investigations) of 45 contractors had not completed
their Computer Security Awareness training within 45 days, as required by the
Agency’s Standard Operating Procedure. Allowing contractor employees to work
on the project before they have been properly vetted for security exposes sensitive
SBA information to loss, or misuse.

The Program Manager acknowledged that contractors started work on the project
prior to being cleared, but believed that it was ok to do so as the contractors were
not given access to sensitive SBA information. He believed that SBA procedures
required security clearances to be completed prior to granting access to SBA
systems or data. The Program Manager contended that 16 of the unvetted
contractors worked on LMAS Task Order 2 without access to sensitive systems or
data, and that the contract lead worked offsite on refining the project plan, which
was not sensitive.

10
     SOP 90 47 2, Automated Information System Security Program, classifies all SBA data as sensitive and requires all
     contractor personnel to undergo background investigations. In addition, contractor personnel occupying positions
     designated as critical-sensitive cannot be given access to sensitive data until an appropriate security clearance has
     been granted.
                                                                                    11


Risk Tracking Process Was Not Sufficiently Developed


The complaint alleged that the LMAS risk management process was immature. In
order to manage IT acquisition performance goals, OMB published the Capital
Programming Guide, which recommends that agencies track project risks in a risk
register. The register should, at a minimum, indicate the risk priority, rating,
response strategy, and status. To implement the OMB guidance for the LMAS
project, SBA created a risk register for the project.

The risk register; however, did not contain complete information on all identified
risks, such as the dates that risks were identified, residual risk, contingency plans
where risks cannot be resolved, and risk ownership. Due to the incomplete
capture of risk information, SBA may not be able to properly respond to
unplanned incidents or to remediate project risks which may contribute to cost
overruns, schedule shortfalls, and the system’s inability to perform as expected.
We reviewed our findings with the Program and Project Managers and provided
them with the relevant OMB guidance.

RECOMMENDATIONS

We recommend that the LMAS Program Sponsor, the Associate Administrator for
Capital Access:

   1. Take steps to modify the contract to require the QA/IV&V contractor to
      report all findings and recommendations to the Program Manager and an
      independent QA manager designated by the CIO.

   2. Establish a process for reviewing and accepting LMAS deliverables that
      complies with SDM requirements.

   3. Ensure contractor employees work on LMAS only after their SBA Form
      1228 Computer Access Clearance/Security Form has been signed and that
      they receive computer security awareness training as required.

   4. Consider revising the risk register to include all fields identified in the
      LMAS Risk Management Plan and complete all missing information in the
      risk register such as due dates, mitigation plans and risk owners.

We also recommend that the CIO:
                                                                               12


   5. Designate a QA Manager for the LMAS project to ensure that the project-
      level QA function is independent from the project.

   6. Immediately establish an enterprise-wide QA function that is compliant
      with SBA’s SDM QA policy.

   7. Take steps to ensure that a well-defined deliverable acceptance process is
      established for the LMAS project in accordance with SBA’s Enterprise
      Quality Assurance Plan.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

On June 12, 2009, we provided a draft of this report to SBA for comment, and on
July 22, 2009, we received consolidated comments from the Associate
Administrator for Capital Access, Chief Information Officer, and the Director,
Office of Financial Systems who serves as the Program Manager for LMAS.
These comments are contained in their entirety in Appendix I.

Management generally disagreed with the audit results, but agreed to take action
on all of the recommendations. We are concerned that the views expressed on the
audit findings are primarily those of the Program Manager, who was the subject of
the allegations. Because the Program Manager’s views have already been
incorporated and evaluated within the body of the report, we are not repeating his
comments to the audit findings here.

While the respondents agreed to take action on all of the recommendations, we
found that the actions proposed in response to Recommendations 1, 2, 3, 5, and 7
were not sufficient to fully address the related findings. These actions do not
comply with established IT governance protocols; such as the SDM, which are
designed to mitigate risk and achieve project objectives.

We are particularly concerned that the CIO has chosen not to immediately
establish a QA oversight function as a vehicle for assessing and improving IT
projects, plans to provide only a “high level” Quality Manager for the LMAS
project, and has not specified when the LMAS Quality Manager will be
designated. Furthermore, several of the responses attempt to modify existing SBA
policy. We suggest any such changes be initiated through SBA’s Clearance
Procedures as outlined in SOP 00 23 6. As the Agency undertakes subsequent
phases of LMAS and additional development projects, it will be critical that the
OCIO provide proper oversight to ensure its standards and procedures are
followed throughout the project development cycle.
                                                                                  13



We recognize the actions taken by SBA to address some of the issues that the
audit team brought to their attention and look forward to resolution of all findings
and implementation of all recommendations.

Recommendation 1

Management’s Comments

Management has directed the QA contractor to simultaneously provide all reports
to the Program Manager and OCIO’s acting enterprise-level QA Manager to
ensure that the QA process is independent from the project management staff.

OIG Response

Management’s response is partially responsive to the recommendation. The
contract terms limit communications solely to the Program Manager and COTR.
Therefore, we believe modification is necessary. Modifying the contract to
require the QA/IV&V contractor to report to the Program Manager and the CIO’s
designated QA Manager will promote the independence and impartiality of the
project’s QA decision-making.

Recommendation 2

Management’s Comments

Management stated that the LMAS process for reviewing and accepting
deliverables goes far beyond the SDM requirements. The LMAS team has created
a well-defined deliverable review and approval process that exceeds the Agency’s
goals as stated in the SDM. However, the LMAS team will continue to review the
suggestions documented in the Enterprise Quality Assurance Plan, evaluate the
benefits and adopt the suggestions that will further improve the program’s
deliverable management process.

OIG Response

At the time of the complaint, there was no LMAS deliverable review process. In
January, 2009 the LMAS project team implemented a deliverable review process.
However, it did not contain key elements of SDM’s Enterprise Quality Assurance
Plan. This plan requires that a defined process be established for accepting
deliverables and outlines oversight responsibilities between OCIO and the project
team to monitor compliance with SBA systems standards. At the present time the
                                                                                14


LMAS Project Manager has sole discretion to approve contract deliverables.
Although management stated that it would evaluate and adopt suggestions to
improve the project’s deliverable management process, it did not specify the steps
it would take to make the current process compliant with the current oversight
requirements of the SDM. Therefore, we do not consider management’s
comments to be fully responsive to the recommendation.

Recommendation 3

Management’s Comments

Management stated that it will continue to ensure that contractor employees who
work at SBA office space or who need access to sensitive SBA systems or data
will be granted access only after the Form 1228 has been signed. The LMAS team
will ensure that these contractor employees complete required training. However,
the LMAS team stated that it will not require background investigations and
clearances for those contractor employees who have short-term assignments that
do not access SBA systems or data.

OIG Response

Management’s response does not describe the process it will employ to ensure that
contractor employees will not have access to sensitive SBA data unless they have
met SBA’s contractor clearance requirements. Management’s decision to not
require background investigations for short-term contractor employees is also
contrary to SBA policy; and therefore, would require an exemption from policy.
Further, as all SBA data is classified as sensitive, it is questionable that a
contractor employee could work on the LMAS project for as long as 6 months
without exposure to any SBA data, including loan data. If SBA proposes a
process that will ensure that certain contractor employees do not have access to
SBA data, which is approved by the CIO, then we would consider the response to
be sufficient to reach management decision. However, as currently stated,
management’s comments are not responsive to the recommendation.

Recommendation 4

Management’s Comments

Management stated that the LMAS team has published a detailed Risk
Management Plan that contains the same fields as those in the Risk Register.
SBA believes the recommendation to complete all missing information in the Risk
                                                                                 15


Register is not cost effective or reasonable and is not based on fixing any
perceived gap in the LMAS management.

OIG Response

We found management’s comments to fulfill the intent of our recommendation,
and therefore, it is responsive.

Recommendation 5

Management’s Comments

Management stated the CIO will designate a high-level QA Manager to fulfill the
independent review function. In the meantime, the CIO is providing oversight of
LMAS from an enterprise-level QA standpoint.

OIG Response

We do not consider management’s comments to be fully responsive to the
recommendation because it has not specified a target date for appointing an
independent project-level QA manager. Further, the breadth of duties of the
independent project-level QA Manager as described in the SDM and Enterprise
Quality Assurance Plan require sustained and in-depth involvement. It is not clear
whether the proposed “high-level” QA Manager or CIO could devote the amount
of time that would be required of the project-level QA Manager described in the
SDM.

Recommendation 6

Management’s Comments

Management stated that an enterprise QA framework and staffing requirements
have been drafted and are under review with an expected finalization date of
October 30, 2009. The QA function will oversee all IT investments, including
LMAS.

OIG Response

The OIG believes that the full implementation of the QA framework, as well as
staffing, to fulfill this role by October 30, 2009 is responsive. However, we note
SBA has had an Enterprise Quality Assurance Plan since April 2004. This need
                                                                                                   16


was also addressed in a prior OIG recommendation, which is past due for
implementation.11

Recommendation 7

Management’s Comments

Management stated that the LMAS process for reviewing and accepting
deliverables goes far beyond SBA’s SDM requirements. However, SBA will
continue to review the LMAS Deliverable Management Process and incorporate
changes to further improve this process.

OIG Response

SBA’s Enterprise Quality Assurance Plan requires the OCIO Quality Manager
and Project Manager to jointly plan and oversee key deliverables, and establishes a
vehicle for the OCIO to ensure enterprise standards are maintained in critical
project control areas, such as IBRs, security reviews and testing. However,
currently the LMAS Project Manager has sole discretion to approve contract
deliverables, and the OCIO has not ensured a QA plan that conforms to the
Enterprise Quality Assurance Plan has been developed and implemented.
Therefore, management’s response has not adequately addressed the
recommendation.

ACTIONS REQUIRED

Because your comments did not fully address Recommendations 1, 2, 3, 5, and 7,
we request that you provide a written response by August 14, 2009, providing
proposed actions and target dates for implementing the recommendations.

We appreciate the courtesies and cooperation of the OCIO and LMAS project staff
during this audit. If you have any questions concerning this report, please call me
at (202) 205-[FOIA ex. 2] or Jeffrey Brindle, Director, Information Technology &
Financial Management Group, at (202) 205-[FOIA ex. 2].




11
     Recommendation No. 4; OIG Report No. 08-13, Planning for the Loan Management and Accounting System
     Modernization and Development Effort, May 14, 2008.
APPENDIX I.
3
4
5
6
7
8
9
10
